<html>
<title> - CONGRATULATING THE PEOPLE OF TAIWAN FOR THE SUCCESSFUL CONCLUSION OF PRESIDENTIAL ELECTIONS ON MARCH 18, 2000, AND REAFFIRMING THE UNITED STATES POLICY TOWARD TAIWAN AND THE PEOPLE'S REPUBLIC OF CHINA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]


 
 CONGRATULATING THE PEOPLE OF TAIWAN FOR THE SUCCESSFUL CONCLUSION OF 
 PRESIDENTIAL ELECTIONS ON MARCH 18, 2000, AND REAFFIRMING THE UNITED 
     STATES POLICY TOWARD TAIWAN AND THE PEOPLE'S REPUBLIC OF CHINA

=======================================================================

                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 22, 2000

                               __________

                           Serial No. 106-105

                               __________

    Printed for the use of the Committee on International Relations





                    U.S. GOVERNMENT PRINTING OFFICE
64-590 CC                   WASHINGTON : 2000






                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate




                            C O N T E N T S

                              ----------                              

                                APPENDIX

                                                                   Page

Bills:
H. Con Res.292...................................................    8 
Additional materials for the record:

A statement from the Honorable Sherrod Brown, a Representative in 
  Congress from Ohio.............................................    12




 CONGRATULATING THE PEOPLE OF TAIWAN FOR THE SUCCESSFUL CONCLUSION OF 
 PRESIDENTIAL ELECTIONS ON MARCH 18, 2000, AND REAFFIRMING THE UNITED 
     STATES POLICY TOWARD TAIWAN AND THE PEOPLE'S REPUBLIC OF CHINA

                              ----------                              


                       Wednesday, March 22, 2000

                  House of Representatives,
              Committee on International Relations,
                      Subcommittee on Asia and the Pacific,
                                                  Washington, D.C.,
    The Subcommittee met, pursuant to notice, at 1:13 p.m., 
Hon. Doug Bereuter [Chairman of the Subcommittee) presiding.
    Mr. Bereuter. Subcommittee on Asia and the Pacific meets in 
open session to consider a resolution. May I say, how much I 
appreciate my colleague, Tom Lantos, the Ranking Member of this 
Subcommittee?
    The clerk will read House Concurrent Resolution 292--
Congratulating the people of Taiwan on the recent elections.
    CLERK. Cooksey. House Concurrent Resolution 292, a 
concurrent resolution congratulating the people of Taiwan for 
the successful conclusion of Presidential elections on March 
18, 2000, and reaffirming United States policy toward Taiwan 
and the People's Republic of China. Whereas, section 2----
    Mr. Bereuter. Without objection, further reading of the 
resolution will be dispensed with, printed in the record in 
full, and open for amendments.
    [The resolution appears in the appendix.]
    Mr. Bereuter. This resolution was introduced by the 
Majority Leader to congratulate the people of Taiwan for the 
successful conclusion of their presidential election on March 
18. Indeed, this election represents the first such transition 
of national office from one elected leader to another elected 
leader in the very long history of Chinese society, and, of 
course, it marks a change in the party affiliation from the 
current leadership of Taiwan.
    The people of Taiwan are to be congratulated for their 
continuing efforts in developing and sustaining a free, 
democratic society which respects human rights and embraces 
free markets. Contrary to the claims of those trying to defend 
Communism and other authoritarian forms of government, this 
election clearly demonstrates that democracy works in China and 
that the Chinese people yearn for it and would flourish with 
it. The success of democracy in Taiwan is, indeed, a powerful 
model for the mainland.
    This resolution also acknowledges that a stable and 
peaceful security environment in East Asia is essential to the 
furthering democratic developments in Taiwan and other 
countries, and it reaffirms U.S. policy toward Taiwan as set 
forth in the Taiwan Relations Act. In this regard, the 
resolution appropriately expresses the sense of Congress that 
the People's Republic of China (PRC) should abandon its present 
provocative threats against Taiwan and that the PRC should 
undertake steps that would lead to substantive dialogue, 
including a renunciation of the use of force against Taiwan and 
the encouragement of democracy, to the rule of law, and to the 
protections of human and religious rights in the People's 
Republic of China.
    I am encouraged that since the election in Taiwan, Beijing 
has curtailed, to a certain degree, its aggressive and 
unhelpful rhetoric and that it appears again, to a certain 
degree, to be extending the offer for a renewed dialogue. It is 
an offer which I hope is presented in good faith. Across the 
strait, President-elect Chen and others in Taipei are also 
calling for a renewed dialogue with the PRC and are already 
adopting the kind of responsible, statesman-like policies, or 
at least rhetoric at this point, that could expand and 
accelerate the dialogue. As you know, the inauguration isn't 
until May 20th.
    I would like to point out to the Subcommittee Members that 
this resolution is the product of input from Majority and 
Minority members, and that a similar resolution with this 
bipartisan language is being introduced in the Senate. Our 
colleague, Mr. Lantos, and others have made very helpful 
suggestions which, by the way, have been accepted by the 
Majority Leader.
    I want to express my appreciation for the interest and 
support of Mr. Lantos, the distinguished gentleman from 
California, for facilitating the prompt consideration of this 
resolution and for his unwavering support for human rights and 
democracy in East Asia and throughout the world through his 
leadership on the Human Rights Caucus. I turn to him for any 
comments he may wish to make at this point. Mr. Lantos.
    Mr. Lantos. I thank you very much, Mr. Chairman, and let me 
fully reciprocate all of your very gracious comments. I am in 
full support of the resolution. I think it is a carefully 
crafted resolution and I hope that it will get overwhelming, if 
not unanimous support when we take it to the floor.
    I think it is important in dealing with China to 
understand, as I know both you and our friend from California, 
Mr. Rohrabacher, fully understand, that all of us view China as 
one of the great civilizations on this planet. There is nothing 
that we would like to see more than increasingly harmonious and 
constructive and growing relations with China, and in this 
instance, the example of Taiwan, in having developed one of the 
most remarkable economic success stories of the last period, 
while simultaneously transforming itself from an authoritarian 
society to a full-fledged political democracy, is one of the 
great success stories of the post-World War II era. It is a 
remarkable phenomenon.
    When we support Taiwan and when we congratulate Taiwan, the 
president-elect of Taiwan, we do so in a very genuine fashion. 
There are no second thoughts behind our congratulations. You 
remember the old story of the two psychiatrists meeting on the 
street, and one is telling the other, ``Hello,''and the second 
psychiatrist responding, ``Hello.'' Then they walk on, and then 
they both stop and turn around and say, ``I wonder what he 
meant by that.''
    We mean by this exactly what we are saying. We are 
congratulating the people of Taiwan for having achieved an 
incredible economic success story and for having built a 
political democracy. Now, I think I speak for both you and Mr. 
Rohrabacher and myself, this is what we all want. This is what 
we all want in Cuba. That is what we all want everywhere.
    This is not an anti-China statement, it is a statement 
congratulating the people of Taiwan and hoping the people of 
China will move in a similar direction.
    I think it is very important for the people who are in 
charge in Beijing now to fully understand that whenever we 
express views supportive of democracy, this is not a hidden 
slap at them. When, several years ago, I introduced a 
resolution ordering the State Department to issue a visa to 
President Lee of Taiwan, it was not an anti-Chinese move, it 
was a move recognizing that we, as a free society, should allow 
distinguished graduates of our own distinguished universities 
to visit the United States. That is not a subversive thought. 
It is not anti-anybody.
    So, I want to commend you, Mr. Chairman, for your support 
of this resolution. I am very pleased to support the 
resolution, and I commend the Majority Leader for introducing 
it.
    I yield the balance of my time.
    Mr. Bereuter. Thank you, Mr. Lantos. I believe the Majority 
Leader would welcome co-sponsorships, and I intend to add my 
name if he will have it. Perhaps the two gentlemen here would 
also like to.
    Are there further comments? The gentleman from California, 
Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and 
thank you, Mr. Lantos, for that very generous set of remarks. 
Again, we often have disagreements, Mr. Lantos and I go at it 
every now and then, but one of the great things that we have 
got going for us here in America, that we want to share with 
everybody, is the fact that we all have a common commitment to 
freedom and liberty and justice, and treating people decently. 
That overpowers anything where we could disagree, and most of 
our disagreements are just basically on interpretations and not 
anything fundamental, and on this resolution, I think it is 
exemplified by this resolution, by the fact I believe it will 
get unanimous--at least bipartisan, if not unanimous support.
    The people of Taiwan, they have just gone through a major 
historic event, and the Republic of China on Taiwan is now 
demonstrating that democracy will work within the context of a 
Chinese culture, and China being such an important 
civilization, that this is a powerful historic statement. So we 
applaud this resolution of what will applaud and I am sure does 
applaud, we applaud the courage of the people of the Republic 
of China on Taiwan in this free election. They faced down 
threats, they faced down intimidation by an unelected regime on 
the mainland of China, and they came through this belligerency, 
as I say, with strength and courage of conviction, and held 
their elections, and their election was a model for many people 
in the developing world.
    The people of Taiwan, in fact, by having this free election 
in the midst of this type of intimidation and belligerence on 
the part of the mainland, have inspired all people who believe 
in liberty and justice and democracy throughout the world. It 
is really an incredible inspiration.
    I wonder how many people in our country, who sometimes 
don't even go out and vote, shouldn't take note that here we 
have people who are going out and voting in the most severe of 
situations, where people are threatening to do them harm if 
they actually went through with this democratic election. So, 
again, their courage has not only served themselves, but served 
the cause of human freedom by inspiring other people throughout 
the world, and serves as a model for developing countries, and, 
also, what we have seen now serves as a model for the mainland.
    The people on the mainland of China must be asking 
themselves now, ``Why can't we have a say in directing our own 
destiny through a free election?'' This is the first time in 
history that a Chinese government will change, will transfer 
power from one group of people to another based on the wishes 
of the people expressed through a free election.
    This is a model for the mainland of China. They have got 
prosperity, they have got freedom, and they have got a social 
cohesion on Taiwan that would serve well on the mainland of 
China if they only gave free government a chance.
    So, I join you, Mr. Chairman, and join Mr. Lantos in this 
piece of legislation. We congratulate President Lee for the 
good job that he has done on Taiwan in these last 5 years, and 
we wish good luck and best wishes to President-elect Chen, and 
we are with the people of the Republic of China on Taiwan and 
all people who believe in democracy. Thank you.
    Mr. Bereuter. Thank you, Mr. Rohrabacher. It is indeed, as 
mentioned, the first time that an elected Chinese government 
has given way to another elected Chinese government.
    Dr. Cooksey, we are about to go to the amendatory process, 
if amendments are in order, so, if you do have an opening 
statement, this would be the time to present it. Would you care 
to make any comments?
    Dr. Cooksey. Just very briefly. Thank you, Mr. Chairman. I, 
too, want to associate my remarks with several of the remarks 
of Mr. Rohrabacher. Lee Teng-hui had done a great job, I think, 
as the President, and he was really the first one that brought 
China--Taiwan or Nationalist China to some form of a democracy, 
and that has really been in recent years. So they are not too 
many years ahead of the PRC, but they were there, they have 
done a lot of the right things.
    I happen to have met President-elect Chen Shui-bian last 
August. He is a very bright guy; he is well-educated. He was 
not considered a serious candidate when I met him, but I think 
he is a capable person, and, most importantly, he was elected 
through a free and open democratic process. I am pleased to see 
that his vice president is a woman, and, hopefully, we can make 
that much progress in this democracy sometime in the not too 
distant future, to elect a female vice president in this 
country.
    I have confidence that the Nation of Taiwan will survive. I 
understand the desire of a lot of people on both sides of the 
Taiwan Straits to have one China, and I think that is a 
decision to be made by the Chinese people. I think it is a 
decision to be made through a democratic process, again, and 
not through belligerence and saber-rattling. There is a 
tendency to do that in that country, as we do in this country 
too much, when there are political campaigns going on.
    But, again, my congratulations to the President-elect, Mr. 
Chen Shui-bian and to his Vice President, Annette Hsiu-lu.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Dr. Cooksey, thank you very much. If there is 
no further introductory comment from Members, the resolution is 
open for amendment at any point. Are there amendments to be 
offered?
    [No response.]
    Mr. Bereuter. If there are no amendments, and, apparently 
there are not, the question occurs on agreeing to the 
resolution. As many as in favor will say aye.
    [A chorus of ayes.]
    Mr. Bereuter. As many as opposed will say no.
    [No noes.]
    Mr. Bereuter. The ayes have it, and the resolution is 
agreed to without objection. The staff is authorized to make 
technical, grammatical, and conforming changes to the text just 
agreed to.
    I thank my colleagues for their attendance at this mark-up, 
and I want them to know that it is my understanding that it is 
the intention of the International Relations Committee to mark-
up this resolution tomorrow morning at the conclusion of the 
Committee's oversight hearing on U.S. policy toward Iraq and to 
mark-up another resolution coming from the International 
Operations and Human Rights Subcommittee.
    With that, I thank my colleagues again, and the 
Subcommittee is adjourned.
    [Whereupon, at 1:19 p.m., the Subcommittee adjourned.]


      
=======================================================================




                            A P P E N D I X

                             March 22, 2000

=======================================================================


      
    [GRAPHIC] [TIFF OMITTED] T4590.001
    
    [GRAPHIC] [TIFF OMITTED] T4590.002
    
    [GRAPHIC] [TIFF OMITTED] T4590.003
    
    [GRAPHIC] [TIFF OMITTED] T4590.004
    
    [GRAPHIC] [TIFF OMITTED] T4590.005
    
    [GRAPHIC] [TIFF OMITTED] T4590.006
    

</pre></body></html>
